LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

June 8, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-874:

WILLIAM ALAN PESNELL, ET AL. V. JILL SESSIONS, CLERK OF COURT,
ET AL.

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Reply to the
Opposition filed by Respondents State of Louisiana and Jill Sessions referenced above
contains 2,572 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 8th day of June 2020.

